               -$.
                .,
               *?.
                     .
                s
                7.

                 i
               3-.
                           CLOSEOUT FOR M-93100054




        e complainant allege

       The complainant was contacted by OIG to clarify the allegations. He claimed that the
subject's NSF proposal contained 1) excerpts copied from his paper without attribution, 2)
passages from ahother author's paper that were cited and copied verbatim but not marked with
quotations, 3) literature citations copied from his paper that could not have been from any other
source, and 4) information gained exclusively from his paper that the subject had stated
incorrectly.

       OIG compared the papers above with the subject's NSF proposal. We found that
although there were two almost complete sentences, one from each paper, and several phrases
that were identical, the extent of apparent copying was minimal. We also determined that
because of the narrowness of the field of proposed research, the subject could be expected to use
the same source citations as the complainant. Moreover, the subject added other citations of his
own. Finally, because the subject cited the complainant's paper, any information described in
the proposal that might be incorrect is an issue that should be evaluated and resolved during the
review process, not by OIG.

       The OIG determined that the allegations were without substance.

       This case is closed.
Concurrence:

 b g -                      14/71?'j                  a . %LNG-J        -
Donald E. Buzzelli                       ~ d e J.s zwdeni@
Deputy Assistant Inspector General for   Assistant Inspector General for Oversight
Oversight


~ a n c y~ h b a u m
Counsel to the Inspector General

cc:   Signatories
      Inspector General
